                                      NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM




       We received an allegation of staff time and travel reimbursement mischarges at the
Arctic Research Commission (ARC), a small federal agency that receives its appropriation
through NSF. In response to our request, ARC sent us documentation explaining its
timekeeping and travel reimbursement methods. While the information regarding staff time
charges was largely incomplete, we concluded that there was no evidence that t h was due to
misconduct. Instead, poor recordkeeping seems to be the problem. The travel
reimbursement documentation provided by the agency was in order. No further action is
necessary. We will send a letter suggesting that ARC use more appropriate recordkeeping
methods in the future, and refer the information for consideration by the Office of Audit.

       Accordingly, this case is closed.

                                           i
